                  TENNESSEE VALLEY AUTHORITY




Office of the Inspector General




                Semiannual Report
                     April 1 ~ September 30, 2007
The Office of the Inspector General (OIG) is an independent organization charged with reporting to the Tennessee Valley Authority (TVA) Board
    of Directors and Congress on the overall efficiency, effectiveness, and economy of TVA programs and operations. The OIG meets this
  responsibility by conducting audits, inspections, and investigations. The OIG focuses on the prevention, identification, and elimination of
       (1) waste, fraud, and abuse; (2) violations of laws, rules, or regulations; and (3) inefficiencies in TVA programs and operations.
                                     Tennessee Valley Authority
                                    Office of the Inspector General

          Message From the Inspector General

This reporting period was marked by TVA leading the nation in the resurgence of nuclear power. TVA’s
commitment to nuclear power was demonstrated by (1) the restart of the Browns Ferry Nuclear Plant (BFN)
Unit 1 in North Alabama in May; (2) Board approval in August for completion of a second nuclear reactor at the
Watts Bar Nuclear Plant (WBN) in East Tennessee; and (3) Board authorization in September to submit an
application to the Nuclear Regulatory Commission (NRC) for a combined construction and operating license for
two new nuclear units at TVA’s Bellefonte site in Hollywood, Alabama. The anticipated flurry of applications by
private sector utilities with the NRC to build new nuclear plants is indicative of the belief within the utility industry
that nuclear power is America’s best option to meet growing power demands. TVA’s successful restart of BFN
Unit 1 on time and within budget has sparked renewed optimism that nuclear power is a viable, clean, and
efficient source of energy. President George W. Bush recognized the significance of TVA’s role in this area by his
attendance at a special ceremony at BFN on June 21, 2007.

The TVA Board recently approved a $9.7 billion budget that includes $317 million to start work at WBN. The
total projected cost to complete the project is $2.49 billion over the next five years. The Board also approved
$423 million for additional natural gas generation. In addition to this new construction, the Board approved
$22 million for the first phase of a renewed emphasis on energy efficiency and reduction in peak power demand.

With this historic investment comes concomitant risks. The OIG’s role is to limit some of those risks by the
oversight we provide. The OIG dedicated both investigators and auditors to BFN during the construction there,
and we have similarly posted OIG personnel at WBN. The OIG staff is trained to anticipate areas in the
construction process that are particularly vulnerable to fraud, our investigators and auditors develop confidential
sources at the site, and we provide a confidential hotline, “Empowerline,” so people can report concerns
anonymously 24/7. As with any major building project, we found fraud, waste, and abuse at BFN. We provided
TVA management with details on each of our findings and “lessons learned” to avoid losses and to improve
contracting and other processes at WBN. We generally were pleased with management’s response to the issues
we raised, and we noted significant improvements.

Of course, the work of the OIG extends beyond the oversight of TVA’s nuclear program. This report contains an
expansive scope of audits, inspections, and investigations that have resulted in a stronger TVA. For example, the
OIG recommended that TVA create a Chief Ethics and Compliance Officer position. The need for a more robust
and comprehensive ethics program following the best practices of the industry was embraced both by the TVA
Board Audit and Ethics Committee and TVA’s Chief Executive Officer (CEO), Tom Kilgore. This new more
centralized approach to invigorating an already ethical culture will increase accountability and awareness of TVA
employees’ ethical responsibilities. Peyton Hairston was named as TVA’s first Chief Ethics and Compliance
Officer; he will report to the CEO and the Audit and Ethics Committee. We applaud TVA’s renewed commitment
to excellence in this area.

Finally, the work highlighted in this report demonstrates broad oversight coverage of TVA by the many dedicated
employees of the OIG. Once again their work has resulted in a healthier and more efficient TVA.




                                                                                                     Richard W. Moore
                                                                                                      Inspector General
                                                                                                        October 1, 2007
Acronyms and Abbreviations



The following are acronyms and abbreviations widely used in this report.
AIGAI                 Assistant Inspector General of Audits and Inspections
BFN                   Browns Ferry Nuclear Plant
BVI                   Bicentennial Volunteers, Inc.
CCT                   Calvert City Coal Terminal
CEO                   Chief Executive Officer
COF                   Colbert Fossil Plant
CQAR                  Coal Quality Adjustment Report
CRS                   Concerns Resolution Staff
ED                    Economic Development
ERS                   Employee Reimbursement System
FISMA                 Federal Information Security Management Act
FRA                   Fraud Risk Assessment
FS                    TVA Fuel Supply
FY                    fiscal year
GAO                   U.S. Government Accountability Office
Gold Card             TVA VISA Gold Executive Expense Card
IG                    Inspector General
IG Act                Inspector General Act Amendments of 1988
INS                   Immigration and Naturalization Services
IR                    Investment Recovery
IT                    Information Technology
NEA                   National Emergency Assistance
NRC                   Nuclear Regulatory Commission
OE&R                  Office of Environment and Research
OIG                   Office of the Inspector General
PII                   personally identifiable information
PR&D                  Performance Review & Development
PRIS                  Personnel Records Imaging System
PSO                   Power Services Operations
PwC                   PricewaterhouseCoopers LLP
RFP                   Request for Proposal
RO                    River Operations
RRC                   Retiree Resource Corporation
RSO&E                 River Systems Operation & Environment
SAS 70                Statement on Auditing Standards 70
SEC                   Securities and Exchange Commission
SOX                   Section 404 of the Sarbanes-Oxley Act of 2002
TRP                   TVA Tuition Reimbursement Program
TVA                   Tennessee Valley Authority
TVAN                  Tennessee Valley Authority Nuclear
WBN                   Watts Bar Nuclear Plant
                                                                         Ta b l e o f C o n t e n t s



Executive Summary                                                                                    1

TVA Profile and the Resurgence of Nuclear Power                                                      3

Office of the Inspector General                                                                      5

Special Features                                                                                    12

Audits                                                                                              15

Inspections                                                                                         25

Investigations                                                                                      36

Legislation and Regulations                                                                         45




Appendices                                                                                          46


Appendix 1 Index of Reporting Requirements Under the Inspector General Act                          47


Appendix 2 Audit Reports Issued                                                                     48


Appendix 3 Audit Reports Issued With Questioned Costs and Recommendations for Better Use of Funds   53


Appendix 4 Audit Reports With Corrective Actions Pending                                            55


Appendix 5 Investigative Referrals and Prosecutive Results                                          56




Highlights                                                                                          57




TVA Office of the Inspector General
Executive Summary



The results of our audits, inspections, and investigations from the past six months are
summarized throughout this report. Highlights include the following.

   TVA created the position of Chief Ethics and Compliance Officer in response to our
   audit of ethics best practices. Our review noted that a true ethics program includes
   more than compliance with government-wide ethics regulations.

   We devoted substantial resources to observe and report on TVA’s nuclear program,
   including the multi-billion dollar projects to restart BFN Unit 1 and now to complete
   the WBN Unit 2. We conducted numerous contract audits and a lessons learned
   inspection at BFN. A former BFN manager pled guilty to making a false statement
   by failing to disclose on his financial disclosure report payments he received at the
   direction of a TVA contractor.

   Eleven contract compliance audits identified $4.4 million in ineligible or unsupported
   costs. Our findings included (1) TVA wasted $689,000 by moving staff
   augmentation contract employees to a “managed task” contract apparently to avoid
   reporting the headcount as staff augmentation and (2) TVA incurred excessive cost
   of $640,000 by allowing a contractor to charge TVA for safety award costs after TVA
   management agreed those charges were not billable to TVA.

   We conducted several reviews related to TVA’s privacy program. An Information
   Technology (IT) audit determined personally identifiable information (PII) and other
   sensitive information were not properly secured on temporary share drives, thus
   exposing the information to anyone with a TVA network ID. Our review of TVA’s
   overall privacy program found TVA has made progress, but a focused effort is
   needed to strengthen the program. We also reviewed the physical loss of
   information contained in the Personnel Records Imaging System (PRIS). Our reviews
   did not find willful misconduct, but did note numerous human errors and a lack of
   proper controls.




page 1                                                          April 1 ~ September 30, 2007
                                                                 Executive Summary



   Our review of TVA’s Economic Development loan programs found, among other
   things, 13 loans that were made although they did not comply with TVA guidelines;
   5 of these loans were in default status. In a separate investigation, two Tennessee
   businessmen were indicted on fraud charges in connection with a $500,000 loan
   from TVA.

   We continued work on initiatives to ensure that OIG employees possess and use the
   correct tools and incentives to help TVA move forward. These programs include
   using videos to promote our message and stationing employees at BFN and WBN.




                                  STATISTICAL HIGHLIGHTS
                        April 1 ~ September 30, 2007
                     Audit Reports Issued                               66
                     Questioned Costs                           $4,634,952
                        Disallowed Costs                        $3,324,324
                        Funds Recovered                         $1,273,595
                     Funds Put to Better Use                       $19,100
                        Funds Realized by TVA                     $948,399
                     Investigations Opened                             113
                     Investigations Closed                             121
                     Fines/Recoveries/Restitution/Savings         $603,438
                     Criminal Actions                                    8
                     Administrative Actions (No. of Subjects)            8
                     Inspections Completed                              16




TVA Office of the Inspector General                                               page 2
T VA P r o f i l e a n d t h e R e s u r g e n c e o f N u c l e a r P o w e r



Created in 1933, today TVA is the nation’s largest public power company. TVA’s
revenue totalled $9.2 billion in fiscal year (FY) 2006. TVA’s power facilities include
11 fossil plants, 29 hydroelectric dams, 3 nuclear plants, 6 combustion turbine plants, a
pumped-storage facility, and 17,000 miles of transmission lines. TVA also produces
energy from three renewable sources––sun, wind, and methane gas from waste. The
TVA service area covers 80,000 square miles in the Southeastern United States,
including almost all of Tennessee and parts of Mississippi, Kentucky, Alabama, Georgia,
North Carolina, and Virginia. By providing wholesale power to 158 municipal and
cooperative power distributors, and by directly serving 62 large industries and federal
facilities in the Valley, TVA supplies the energy needs of 8.7 million people.

As a regional development agency, TVA supplies affordable, reliable power; supports
the nation’s fifth largest river system, the Tennessee river system; and promotes
economic development. TVA dams are part of a totally integrated resource
management system for a 41,000-square-mile watershed where each dam operates in
relationship to the others for multiple purposes and public benefits, including flood
control, maintaining navigation, providing recreational opportunities, and protecting
water quality.

The nation’s nuclear power industry has indicated that 2007 is a year for resurgence of
nuclear power. NRC Chairman Dale Klein has said that over the next year and a half
the NRC expects to receive 20 license applications in addition to the two new TVA
applications reported below. In September 2007, the NRC received its first application
in 29 years for a new reactor license. The industry’s direction is certainly true for TVA;
the TVA Board voted on September 27, 2007, to seek a license for a new nuclear
power facility at its Bellefonte site in northwest Alabama. Earlier, in May 2007, TVA
launched the historic restart of BFN Unit 1 near Huntsville, Alabama. The plant had
been inactive for 22 years. Following the May restart, the TVA Board voted on
August 1, 2007, to complete and seek an operating license for WBN Unit 2 in Spring
City, Tennessee.




page 3                                                           April 1 ~ September 30, 2007
            T VA P r o f i l e a n d t h e R e s u r g e n c e o f N u c l e a r P o w e r




                                                         WBN Unit 2         BFN Unit 1


       Projected dollar cost to complete                   $2.49 billion     $1.8 billion

       Completion schedule                                   5 years              5 years

       Number of evaluation studies                             4                   2

       Megawatts of added capacity                            1,180               1,280

       Homes that can be provided power                     650,000+             700,000+

       Tons of carbon-dioxide emissions from operation          0                   0

       Increase in number of employees for operation           271                 150




                                                       Watts Bar Nuclear Plant




            Browns Ferry Nuclear Plant




TVA Office of the Inspector General                                                       page 4
Office of the Inspector General



Office Authority

Created by the TVA Board of Directors in 1985, the TVA OIG became statutory under
the Inspector General Act Amendments of 1988 (IG Act). The authority to appoint the
TVA Inspector General (IG) was transferred to the President in November 2000 by
Public Law No. 106-422. The IG is responsible for conducting audits and investigations
relating to TVA programs and operations while keeping the TVA Board and Congress
fully and currently informed about problems and deficiencies. The TVA IG is
independent of TVA management and subject only to the general supervision of the
TVA Board.

OIG RESPONSIBILITIES

   Promote economy and efficiency while preventing and detecting fraud, waste, and
   abuse.

   Conduct and supervise audits and investigations relating to TVA programs and
   operations.

   Keep the TVA Board and Congress fully and currently informed concerning fraud and
   other serious problems, abuses, and deficiencies relating to TVA programs and
   operations.

   Recommend corrective actions concerning problems, abuses, and deficiencies, and
   report on the progress made in implementing such actions.

   Assure work performed by non-federal auditors complies with government
   auditing standards.

   Issue semiannual reports to TVA Board and Congress.




page 5                                                       April 1 ~ September 30, 2007
                                       Office of the Inspector General



OIG AUTHORITIES

   Conduct any audit or investigation the IG deems necessary or desirable.

   Access all TVA records or other material.

   Issue subpoenas and administer oaths.

   Receive complaints and grant confidentiality.

   Have direct and prompt access to the TVA Board.

   Hire employees and contract for services as necessary.


Organization

The OIG’s primary location is adjacent to the TVA headquarters in Knoxville, Tennessee.
To obtain broader coverage throughout the Valley, the OIG also has Investigations
offices in Mayfield, Kentucky, in Chattanooga, Tennessee, and at BFN near Athens,
Alabama, as well as an Inspections unit located in Chattanooga. The OIG consists of
three primary components: (1) Administration, (2) Audits and Inspections, and
(3) Investigations.




                                                                          The OIG is primarily located
                                                                             in the TVA Towers in
                                                                                   Knoxville.




TVA Office of the Inspector General                                                  page 6
Office of the Inspector General



OIG STRATEGIC PLAN

VISION

To be a highly effective organization that promotes positive change by identifying
opportunities for improvements in the performance and efficiency of TVA’s programs
and operations.

MISSION

Promote excellence in TVA’s operations through the conduct of investigations, audits,
inspections, and advisory services designed to promote economy, efficiency, and
effectiveness and prevent and detect fraud, waste, and abuse.

STRATEGIC GOALS

         PERFORMANCE                            WORKFORCE               S TA K E H O L D E R
           Perform timely                         Cultivate and           Communicate
            reviews that                         retain a highly         effectively with
              address                                 skilled,          stakeholders and
            stakeholder                         productive, and          deliver services
           concerns and                           fully engaged          that meet their
          areas of highest                          workforce                 needs
                 risk



STRATEGIC OBJECTIVES

    Focus efforts on areas                     Hire and retain a well    Improve stakeholder
    of highest impact and                      qualified workforce       awareness of OIG
    risk                                       Maintain competitive      Ensure stakeholders
    Ensure processes are                       pay and reward            are kept informed
    efficient and effective                    programs that allow       Ensure stakeholders
    Stay abreast of                            for rewarding team        have an opportunity to
    emerging issues and                        and individual            provide input in the
    industry trends                            contributors              annual audit planning
    Stay abreast of                            Develop leadership,       process and each
    stakeholder concerns                       team and technical        i n d i v i d u a l r e v i e w, a s
    Produce work that is                       skills for each           appropriate
    t i m e l y, r e l e v a n t , a n d o f   employee
    high quality                               Ensure accountability
                                               in individual
                                               performance
                                               Promote effective
                                               communications within
                                               OIG staff




page 7                                                                  April 1 ~ September 30, 2007
                                          Office of the Inspector General



AUDITS

Audits conducts and/or supervises comprehensive financial and performance
audits of TVA programs and operations. Based upon the results, Audits
makes recommendations to ensure that program objectives and operational
functions are achieved effectively and efficiently. Audits develops an annual
plan to achieve the most beneficial allocation of resources. The annual plan
addresses those issues, programs, operations, and activities that have the
greatest likelihood of placing TVA at risk for fraud, waste, abuse, or in regards to IT,
malicious, or other intrusion.

Audits consists of three departments––Contract Audits, Financial/Operational Audits,
and IT Audits.

   Contract Audits has lead responsibility for contract compliance and pre-award
   audits. In addition, this group performs reviews of TVA contracting processes and
   provides claims assistance and litigation support.

   Financial/Operational Audits has lead responsibility for (1) oversight of TVA’s financial
   statement audit and related services performed by TVA’s external auditor; (2) reviews
   of TVA’s internal controls related to financial reporting, operational efficiency, and
   compliance with laws and regulations; and (3) operational reviews to assess the
   results and economy and efficiency of TVA programs.

   IT Audits has lead responsibility for audits relating to the security of TVA’s IT
   infrastructure, application controls, and general controls associated with TVA
   systems. This group also performs operational reviews of the effectiveness of
   IT-related functions. In addition to its audit mission, IT Audits is responsible for
   developing and supporting an independent OIG computer network.




TVA Office of the Inspector General                                                       page 8
Office of the Inspector General



INSPECTIONS

         The Inspections unit was formed at the beginning of FY 2004. Inspections
         provides flexibility to conduct limited scope policy and program evaluations to
         promote economy and efficiency in the management and administration of TVA
         programs. In accordance with the Quality Standards for Inspections, the
         objectives of the Inspections unit include providing a source of factual and
         analytical information, monitoring compliance, measuring performance, assessing
the efficiency and effectiveness of operations, and/or conducting inquiries into
allegations of fraud, waste, abuse, and mismanagement.

INVESTIGATIONS

Investigations conducts and coordinates investigative activity related to fraud, waste,
and abuse in TVA programs and operations. The activities investigated include possible
wrongdoing by contractors, employees, and ED loan recipients.
Investigations maintains liaisons with federal and state prosecutors and
reports to the Department of Justice whenever the OIG has reasonable
grounds to believe there has been a violation of federal criminal law.
Investigations works with other investigative agencies and organizations
on special projects and assignments, including interagency law
enforcement task forces on terrorism, the environment, and health care.




page 9                                                           April 1 ~ September 30, 2007
                                        Office of the Inspector General



NEW FACES AND ROLES IN THE OIG

The TVA OIG welcomed Robert E. Martin as the Assistant Inspector
General of Audits and Inspections (AIGAI) on Monday, October 15.
Mr. Martin will be responsible for managing all audits and inspections
performed by the OIG.
                                                                                      Robert E. Martin
                                                                                 Assistant Inspector General
Mr. Martin served as the Assistant Inspector General of Aviation & Special        (Audits and Inspections)

Program Audits for the Department of Transportation after serving as a Director in the
Financial Management and Assurance Division for the U.S. Government Accountability
Office (GAO) in Washington, D.C., for nearly five years. While with the GAO, Mr. Martin
was a lead auditor of TVA.

Ben Wagner, former AIGAI, was named Deputy Inspector General in July.
He took on the position full-time in October after Mr. Martin was selected
as his replacement for AIGAI. Mr. Wagner originally started with TVA in
1979, and he was one of the first employees hired into the OIG after the
                                                                                        Ben Wagner
office was created in 1985.                                                       Deputy Inspector General



Former Chief of Investigations for the Alabama Attorney General’s Office, John E.
Brennan, has been named Assistant Inspector General of Investigations replacing
Charles Kandt, who has been detailed to the U.S. Attorneys’ Office for the Eastern
District of Tennessee and will assist in the prosecution of future OIG criminal cases.
Mr. Brennan, a veteran Federal Bureau of Investigation agent, has specialized in white
collar fraud and public corruption.




                                                                                      John E. Brennan
                                                                                 Assistant Inspector General
                                                                                       (Investigations)




TVA Office of the Inspector General                                                 page 10
         Office of the Inspector General



                                                       Richard W. Moore - Inspector General




              Richard P. Levi
              Legal Counsel                                            Ben R. Wagner
                                                                       Deputy Inspector General


A d m i n i s t r a t i o n & G ove r n m e n t R e l a t i o n s

              Ronald Wise                                           Kay Myers
              Assistant Inspector General                           Manager
                                                                    Human Resources


              Stefanie Hoglund
              Communication Specialist



I nve s t i g a t i o n s

              John E. (Jack) Brennan
              Assistant Inspector General



Audits and Inspections

              Robert E. Martin                                      David P. Wheeler
              Assistant Inspector General                           Director
                                                                    Contract Audits


              Gregory C. Jaynes                                     Lisa M. Hammer
              Deputy Assistant Inspector General                    Director*
              Inspections                                           Financial & Operational Audits


              Louise B. Beck                                        Jill M. Matthews
              Audit Quality Manager                                 Director
                                                                    Information Technology Audits

*This position is a 6-month assignment.



                                          OIG website: http://oig.tva.gov



         page 11                                                          April 1 ~ September 30, 2007
                                                             Special Features



Below we highlight innovative and noteworthy OIG management practices, such as
extended telework and using videos, and our recent review of ethics at TVA.


OIG Innovates to Improve

We are continuously seeking ways to improve our operations. To further this goal, we
initiated a best practices exchange with other OIGs to share ideas and solutions. Our
meetings to date with several other offices have led us in many cases to re-examine our
practices and consider new techniques. Our efforts have included conducting a SWOT
analysis, where we analyzed OIG strengths, weaknesses, opportunities, and threats,
and the development of a dashboard to better manage our cases. Below we outline
some other concepts we are implementing.

TVA OIG RELEASES REVEALING AND INFORMATIVE VIDEOS

The OIG is on a mission. That mission is to educate TVA employees about the
role of the OIG. Recognizing that in the modern age we need to seek out new
methods of communicating our message, we have produced two videos toward that
end. One video is shown to all new TVA employees during their orientation and outlines
who and what the OIG is. The other video shows real-life examples of fraud cases
involving TVA employees and contractors.




TVA Office of the Inspector General                                            page 12
Special Features



As stated in the video by IG Moore, it is important to note that the vast majority of TVA
employees and contractors do the right thing. There are those few who may succumb
to the temptation of fraud, however, and it is up to each person to alert the OIG to any
suspicions they may have. This video is designed to give TVA employees examples of
what fraud may look like, so to speak, and to educate them on what to do if they
suspect fraud.

The video gives information on the OIG hotline, called Empowerline, and explains that
the hotline is outsourced to a neutral third party and provides those reporting a concern
the choice of anonymity. The Empowerline is accessible by calling 1-877-866-7840 or
by going to the web site at www.OIGempowerline.com.

EXTENDED TELEWORK PRODUCES FAVORABLE RESPONSES

During this semiannual reporting period, we piloted an extended telework program,
defined as employees spending three or more days a week teleworking. The evaluation
process included obtaining feedback from participants, their supervisors, and their
coworkers on this pilot. Overall, the feedback was supportive of extended telework and
led to only minor adjustments.

The responses also negated concerns about productivity, communication, and
teamwork. Based on that feedback, the program is being extended to include all
agents and auditors and others in the office as appropriate. While extended telework
may not work or be available to everyone, we expect to expand the program to the
fullest extent possible.

FOCUS ON ETHICS

Ethical lapses such as those which have recently rocked corporations, universities, and
even government agencies can lead to scandals and loss of a positive public image.
Following a review of ethics and compliance at TVA, the OIG issued a report that
recommended TVA create a Chief Ethics and Compliance Officer position. The
presentation included a formal definition of ethics, along with a simple description of
“the spirit of doing the right thing.” The benefits of an ethics program include promoting



page 13                                                         April 1 ~ September 30, 2007
                                                                Special Features



the desire most people have to do the right thing in an ethical environment, the
competitive edge ethical organizations maintain over time, and the fact that a free
market system operates on trust and trust makes business and commercial efforts both
more effective and efficient. The OIG team concluded that TVA’s current ethics and
compliance program has many pockets of activities that, in themselves, appear to be
well-managed. The OIG further noted, however, that a centralized and more broadly
defined program would provide a coherent approach to address the key elements of
(1) creating a more extensive program through training, communications, and principles
to guide behavior; (2) reviewing and tracking ethics issues; and (3) organizing a
corporate approach to ethics and compliance. To address these key elements, the OIG
recommended establishing the position of Chief Ethics and Compliance Officer at TVA.
With the advent of Sarbanes-Oxley and other ethics and compliance initiatives across
the country, many large companies have established such a position. As
recommended by the OIG, this position would be responsible for, among other things,
directing the ethics program and coordinating compliance programs across TVA and
sharing ethics and compliance issues across business units. TVA subsequently
appointed an Chief Ethics and Compliance Officer.

The team’s other findings include that only about 20 percent of TVA employees take
annual ethics training. TVA OIG recommended that all employees receive annual ethics
training, including training on basic principles to guide behavior. In regard to personnel
practices, the OIG recommended that all performance evaluation tools include
commitment to basic TVA values, behavior-based interviewing techniques be
incorporated in hiring practices to probe for ethical behavior traits, and all rewards and
promotions be reviewed for consistency regarding ethical behavior. The OIG
recommended TVA create a process for centrally tracking ethical issues from
identification to resolution, summarizing and trending issues, and sharing the
information across business units. We will be working with the Chief Ethics and
Compliance Officer to address these other issues.




TVA Office of the Inspector General                                                 page 14
Audits



Summary of Representative Audits

Audits are initiated from (1) the OIG annual workplan, (2) additional issues identified by
the OIG subsequent to the annual workplan, (3) issues identified by cooperative efforts
with TVA management, and (4) concerns raised by TVA management or other
stakeholders. During this reporting period, we completed 66 audits which identified
approximately $4.6 million in questioned costs and over $19,000 in funds which could
be put to better use. We also identified several opportunities for TVA to improve
program operations. Our audits include (1) pre- and post-award contract audits,
(2) financial-related audits, (3) operational audits, and (4) IT audits. We also completed
17 other audit-related projects.

CONTRACT COMPLIANCE AUDITS IDENTIFIED $4.4 MILLION

During this semiannual period, we completed 13 audits, including 11 contract
compliance audits that identified $4.4 million in ineligible and unsupported costs. We
also provided advice to TVA management regarding deficiencies in certain contracts
and evaluations of contractor proposals. In addition, we provided assistance to OIG
investigations on various contractor investigations and fraud risk assessments.
Highlights of these audits follow.

   We audited $37.4 million of costs billed by a TVA contractor for providing specialty
   fire protection systems and determined the contractor had billed TVA an estimated
   $408,100 of excessive or unsupported costs. Specifically, the contractor billed TVA
   (1) an estimated $257,400 of extra labor costs because it paid certain local craft
   employees wage and benefit rates that exceeded standard rates included in TVA’s
   labor agreements, (2) $87,700 of labor adjustments that were either not in
   accordance with the contract or were duplicates of adjustments that had already
   been made, and (3) $63,000 of miscellaneous overpaid and unsupported labor and
   travel costs. We recommended TVA revise its contract to include specific criteria for
   paying wage and benefit rates that exceed standard rates included in TVA’s labor




page 15                                                          April 1 ~ September 30, 2007
                                                                                   Audits



   agreements, determine if any of the previously billed costs should be recovered, and
   recover or avoid paying the remaining overbilled costs.

   TVA management subsequently decided not to recover the $257,400 of extra labor
   costs but plans to require annual preapproval by the contractor to pay rates that are
   higher than rates included in TVA’s labor agreements. Additionally, management
   recovered about $124,000 of the remaining overbilled costs.

   We audited $2.49 million of costs billed to TVA by a contractor from January 2005
   through December 2006 for the administration of TVA’s vision benefit program. We
   found TVA was billed (1) an estimated $69,928 for miscalculated and unsupported
   claim costs, (2) $4,210 for duplicate claims, and (3) $22,255 for claims that
   exceeded the contract frequency limitations. Additionally, TVA was billed an
   estimated $56,748 in ineligible claim costs that occurred because eligibility
   information was not updated on a timely basis. TVA management has or is planning
   to recover the overbilled costs including the estimated $56,748 that occurred
   because the contractor did not update eligibility information on a timely basis.

   Our audit of costs billed to TVA by a contractor who provided engineering and
   technical support found that most of the contractor employees had been transferred
   from staff augmentation contracts where they had been performing the same duties
   at a substantially lower cost to TVA. In total, we determined TVA’s costs increased
   $689,000 when the staff augmentation contract employees were moved to the
   “managed task” contract, primarily due to a high overhead markup rate. By moving
   the contract employees to the “managed task” contract, it appeared TVA was
   attempting to avoid reporting this headcount as staff augmentation. Since it
   appeared doubtful TVA had received $689,000 worth of management oversight from
   the contractor, it is our opinion that TVA wasted $689,000 when it moved staff
   augmentation contract employees to the “managed task” contract.




TVA Office of the Inspector General                                                   page 16
Audits



  We audited $58.5 million of costs billed to TVA by a contractor for staff
  augmentation support services during FYs 2005 and 2006. We determined TVA
  was overbilled about $540,000 for labor costs due to duplicate billings,
  overpayments of labor hours, and the use of incorrect wage rates. We also found
  the contractor had not maintained documentation to support approximately
  $340,000 of travel expenses billed to TVA. The contractor and TVA management
  agreed with our findings, and TVA is planning to (1) recover the overbilled amount
  and (2) implement a requirement for the contractor to maintain documentation of
  travel expenses that are billed to TVA.

  We audited $249 million of costs for parts and services for BFN paid by TVA to a
  contractor from January 1, 2000, through May 31, 2006, and found TVA had been
  overbilled $960,000 because the contractor had not always discounted its prices as
  required by the contract. TVA management is working with the contractor to
  determine what impact, if any, a previous verbal agreement regarding the contract
  discount structure may have on the amount owed to TVA.

  Contrary to a previous decision by TVA management that safety award costs were
  not billable to TVA, we found a contractor had billed TVA an additional $895,000 for
  the safety award costs. Additionally, we found that TVA approved a contract work
  authorization that apparently contradicted TVA’s previous decision regarding the
  direct billing of the safety awards. As a result, TVA may have been obligated to pay
  part of the $895,000 billed by the contractor. Procurement subsequently decided
  to only pursue recovery of $255,000 of the cost that had been billed to TVA.




page 17                                                       April 1 ~ September 30, 2007
                                                                                     Audits



FINANCIAL-RELATED AUDITS

During this semiannual period, we completed 27 audits, including 6 financial-related
audits and testing of financial reporting controls for 21 various business processes to
assist with TVA’s initiative to comply with Section 404 of the Sarbanes-Oxley Act of
2002 (SOX). Highlights of these projects follow.

EXTERNAL AUDITOR COMPLIES WITH GOVERNMENT AUDITING STANDARDS

TVA contracted with the independent certified public accounting firm of
PricewaterhouseCoopers LLP (PwC) to audit TVA’s balance sheets as of September 30,
2006 and 2007, and the related statements of income, changes in proprietary capital,
and cash flows for each of the three years in the period which ended September 30,
2007. In addition, the contract called for the review of TVA’s quarterly financial
information associated with the filing of its quarterly reports on Form 10-Q with the
Securities and Exchange Commission (SEC). The contract required that audit and
related work be done in accordance with generally accepted government auditing
standards. We reviewed PwC’s reports and related audit documentation for the
quarterly reviews, interviewed their representatives, and performed such other
procedures as we deemed necessary in the circumstances to provide reasonable
assurance the audit and related work were performed in accordance with these
standards. Our reviews disclosed no instances where PwC did not comply, in all
material respects, with generally accepted government auditing standards.

END-USE BILLING ANALYTIC COULD BE IMPROVED

Currently, 158 distributors (including municipalities and cooperatives) purchase power
from TVA. Each month, all distributors collect power usage data from their end-use
customer meters and summarize that data into the applicable end-use revenue
categories. This information is reported by the distributors to TVA in one file called
Schedule 1. Monthly, TVA bills its distributors based on the revenue category
breakdown reported on the Schedule 1s.




TVA Office of the Inspector General                                                   page 18
Audits



TVA’s Annual Report on Form 10-K, filed with the SEC for FY 2006 disclosed “a
material weakness in internal controls related to TVA’s end-use billing arrangements with
wholesale power customers.” The material weakness in financial reporting controls
stemmed from the fact that TVA placed considerable reliance on distributors to
accurately report the data to TVA supporting their own monthly power bills (and thus
determine TVA’s end-use revenues).

To address the material weakness, in FY 2006 TVA requested from each distributor and
the distributor’s third-party billing processor, if applicable, an annual Statement on
Auditing Standards 70 (SAS 70) Type II internal control report covering 12 specific
control objectives. Based on the results of the SAS 70 audits and the Controller
organization’s evaluation of these results, some distributors were classified as needing
additional analytic review. For those distributors, TVA developed a quarterly end-use
revenue analytic to determine whether end-use billing revenues reported by those
distributors were materially misstated for financial reporting purposes.

We reviewed TVA’s methodology for preparing its FY 2007 end-use revenue analytic.
We generally believe the methodology used was a reasonable approach to calculate a
quarterly maximum potential error for comparison with TVA’s quarterly financial
reporting materiality threshold. However, areas were identified to improve the precision
of the analytic results. We found the rationale for applying an assumed error rate to a
percentage of revenue categories was not documented. In addition, we determined
that guidance did not (1) specify that management would review and approve the
component calculations and completed analytic prior to its use and (2) address
procedures to be performed in instances where the quarterly potential error estimate
exceeded TVA’s quarterly financial reporting materiality threshold.

Management agreed to revise its end-use process narrative to reflect the basis for
applying assumed error rates. In addition, management stated that (1) procedures have
been implemented related to the review and approval of the analytic calculation and
(2) errors identified in the FY 2007 Quarter 1 analytic were corrected in the preparation




page 19                                                          April 1 ~ September 30, 2007
                                                                                  Audits



of the FY 2007 Quarter 3 analytic. Management drafted procedures to be performed
when the calculated net error is greater than TVA’s financial reporting materiality.

SOX READINESS TESTING

In support of TVA initiatives to comply with SOX, we completed 21 projects to test or
retest financial reporting controls in 19 of about 70 key business processes determined
to be in scope for SOX compliance. These projects were designed to provide the Vice
President and Controller with information to assess TVA’s readiness to comply with
SOX. The deficiencies included needed improvements in control design, control not
being performed as intended, inadequate documentation retained to demonstrate the
control operated in the period tested, and other documentation-related improvements.

OPERATIONAL AUDITS

During this semiannual period, we completed five operational audits. Highlights of two
of these audits follow.

IDENTIFICATION AND MANAGEMENT OF SURPLUS MATERIALS

We reviewed the processes related to identifying and managing surplus materials to
determine if surplus material is identified and managed in accordance with TVA policies
and procedures. In summary, we found:

   Inconsistencies in the methods used to identify surplus.

   Surplus inventory overages totaling $58,756 and inventory shortages totaling
   $617,524 at the Hartsville facility.

   Receipts of surplus material redeployed from Hartsville to a facility not being
   completed or cancelled in PassPort (TVA system used for supply chain
   management) in a timely manner.

   Discrepancies between actual bids and awarded bids for the April 2006 sealed-bid
   auction.




TVA Office of the Inspector General                                                    page 20
Audits



We recommended (1) Procurement management ensure compliance with process
documentation related to identification of surplus materials, (2) Investment Recovery (IR)
personnel ensure the accuracy and completeness of the information in PassPort related
to the locations and quantities of the surplus material at the Hartsville facility,
(3) Procurement management ensure transfers are completed in PassPort in a timely
manner, and (4) IR management ensure the accuracy and completeness of the
sealed-bid process.

Procurement management stated they had (1) received confirmation from each site
procurement manager that they are complying with process documentation related to
identification of surplus material, (2) corrected all items addressed in the draft audit
report related to accuracy of surplus inventory, (3) planned to issue a reminder to site
procurement managers regarding the timely completion of transfers in PassPort, and
(4) established guidelines to ensure the completeness and accuracy of the sealed-bid
process.

COAL QUALITY ADJUSTMENT REPORTS (CQAR)

We assessed the accuracy of 58 CQARs representing $48 million or 40 percent of the
total dollar adjustments processed during FYs 2003 through 2006. During FYs 2003
through 2006, TVA paid approximately $6.4 billion for coal and related transportation
costs to fuel its 11 fossil plants. Coal sampling and analysis is an essential aspect of
the overall power production program. Without it, TVA has no assurance that the coal
received is of the quality necessary to effectively operate the plants within environmental
standards and operating guidelines. Also, sampling is necessary to provide a basis for
price adjustments to ensure the price paid for coal reflects the quality of the coal
received. CQAR adjustments can significantly affect the net cost that TVA pays vendors
for coal.

In summary, we found that CQARs were not calculated accurately in 27 instances
(about 47 percent). The miscalculations were due to errors resulting from either, or a
combination of, (1) sample analysis data keyed incorrectly into the CQAR, (2) incorrect
tonnage used when calculating the CQAR, (3) all sample data not being used to



page 21                                                            April 1 ~ September 30, 2007
                                                                                Audits



calculate the CQAR, (4) calculation rounding not in accordance with contract terms, and
(5) incorrect contract guarantee applied to the CQAR calculation. In addition, we found
that one CQAR adjustment was based upon a handwritten change made in a contract
that was not initialed to show agreement by both parties.

We recommended TVA management (1) adjust future payments to coal vendors to
compensate for overpayments and underpayments, (2) take corrective action to prevent
processing errors, and (3) ensure all contract changes are documented and approved
by both parties. TVA management concurred with our recommendations and agreed to
recalculate the CQARs identified as needing correction and submit the appropriate
financial adjustments to the coal vendors (overpayments to vendors totaling $395,071
and underpayments totaling $150,717), with the exception of two coal vendors who no
longer exist. TVA management further agreed to take corrective action to prevent
processing errors and ensure contract guarantees are correct.

IT AUDITS

During this semiannual period, we completed 21 audits, including 8 audits in the IT
environment and 13 reviews in support of TVA’s readiness efforts to comply with SOX.
Highlights of a selection of these audits and reviews follow.

SOX READINESS TESTING––IMPROVEMENTS NEEDED

We performed testing of primary controls in three IT general control areas––Change
Control, Access to Programs and Data, and Computer Operations. In addition, we
tested primary controls specific to ten applications which were considered in scope for
SOX. Overall, we noted opportunities to improve SOX documentation, operating
effectiveness of controls, and areas where control gaps existed. TVA management has
taken or is in the process of taking action to remediate issues noted in these reviews.




TVA Office of the Inspector General                                               page 22
Audits



AREAS OF IMPROVEMENT NOTED IN FEDERAL INFORMATION SECURITY
MANAGEMENT ACT (FISMA)

FISMA was enacted to call attention to IT security within the government. As a part of
FISMA, the OIG performs an annual review. Our review determined while TVA continues
to make progress in implementing IT security controls required by FISMA, additional
controls are needed to improve (1) oversight and evaluation of contractor systems,
(2) the Privacy Program, and (3) consideration of e-authentication risks at TVA. TVA
management generally agreed with our findings and is in the process of implementing
corrective action.

IMPROVEMENTS NEEDED IN PRIVACY PROGRAM AND PROTECTION OF
PII AND SENSITIVE INFORMATION

We performed (1) an overall review of TVA’s Privacy Program and (2) a review targeted
at the protection of PII and other sensitive information residing on temporary share
drives. In the overall Privacy Program review, we found (1) TVA’s privacy policies and
procedures were generally consistent with federal requirements, however, we noted
areas where further guidance is needed; (2) while TVA has made progress in
implementing privacy program components, a focused effort is needed to strengthen
the program in areas, e.g., better integration among TVA groups who have privacy
responsibilities; and (3) improvements are needed in certain privacy practices.

In the second review, we determined PII and other sensitive information were not
properly secured on temporary share drives thereby exposing the information to anyone
with a TVA network ID. We also determined these shares were being used to store
non-business related information. In addition, TVA does not have a policy or guidance
for management of temporary shares to address their proper use. TVA had drafted
updates to three policies or business practices regarding protection and classification of
information and notification procedures when PII has potentially been exposed, but
these had not been implemented at the time of our review. TVA management generally
agreed with our findings and is in the process of implementing corrective actions.




page 23                                                        April 1 ~ September 30, 2007
                                                                                    Audits



WEAKNESSES IN SECURITY AND INTERNAL CONTROLS IDENTIFIED

We performed five other reviews pertaining to (1) pre-implementation of a new system,
(2) security of a critical system, (3) backup and server failures for a system, (4) handling
of a computer incident at a critical facility, and (5) verification of backups for production
systems. In these reviews, we noted:

   Improvements could be made to address weaknesses in logical and physical
   security controls designed to prevent unauthorized access to system programs, data
   and facilities, and general controls designed to ensure ongoing operations.

   Backup and server failures were due to (1) human error and (2) the lack of proper
   controls to detect when backups are no longer occurring. In addition, PII was not
   adequately secured when efforts were made to recover data.

   Improvements could be made in the backup process to better ensure all systems are
   backed up in accordance with system requirements.

   IT Security and TVA organizational procedures need to be enhanced to ensure
   (1) timely coordination between TVA organizations and IT Security when a computer
   incident occurs and (2) organizations consider cyber-based factors when
   investigating a computer incident.


TVA management generally agreed with our findings and is in the process of
implementing corrective actions.




TVA Office of the Inspector General                                                   page 24
Inspections



Summary of Representative Inspections

Inspections may be initiated from various sources including (1) annual project planning,
(2) management requests, (3) audit/investigative referrals, and (4) spin-off reviews
resulting from an ongoing inspection. During this semiannual period, we completed
16 inspections which identified over $15,000 in questioned costs. We also identified
various opportunities for TVA to improve program operations. Highlights of our
inspections follow.

TVA SECTION 26A PERMITTING AND LICENSING PROCESS AND PROCEDURES

We performed a review to determine whether River Systems Operation & Environment
(RSO&E) permitting policies and procedures (1) ensure reviews and approvals are
conducted consistently and in accordance with applicable requirements and (2) are
being followed. TVA regulations (18 C.F.R. Part 1304) related to Section 26a of the TVA
Act of 1933 (Section 26a) require that TVA’s approval be obtained prior to the
construction, operation, or maintenance of any dam, appurtenant works, or other
obstruction affecting navigation, flood control, or public land or reservations along or in
the Tennessee River or any of its tributaries. Our review included Reservoir Land
Records established in RSO&E's Automated Land Information System during the period
October 1, 2004, through July 31, 2006. In summary, we found:

   RSO&E has implemented permitting guidelines which should ensure (1) TVA
   regulations (18 C.F.R. Part 1304) pertaining to Section 26a of the TVA Act are
   followed and (2) consistent review and approval of Section 26a applications.
   However, documentation requirements supporting permitting decisions could be
   improved.

   For the 101 Reservoir Land Records we reviewed, 37 had varying noncompliance
   issues and an additional 15 had Reservoir Land Records data entry issues.




page 25                                                          April 1 ~ September 30, 2007
                                                                       Inspections



TVA management agreed with our findings and recommendations and has initiated or
plans to initiate appropriate corrective actions. Some of the corrective actions being
considered include (1) revising guidelines to clarify proper record management and
Shoreline Management Policy waiver documentation, (2) providing refresher training on
processing Section 26a applications, and (3) enhancing the Section 26a electronic data
system.

TRAVEL REIMBURSEMENTS AT TVA

We performed an inspection to assess the reasonableness of travel reimbursements
where employees (1) were in travel status for an extended period of time and/or
(2) received significant reimbursements. Our review included a sample of all
reimbursements made to employees during FYs 1999 through 2006.

TVA employees are reimbursed for travel and travel-related expenses through TVA’s
Employee Reimbursement System (ERS). Based on ERS data beginning with FY 1999,
travel reimbursements have exceeded $15 million each year with FY 2002 having the
highest amount of travel reimbursements—about $20.4 million. More recently, total TVA
employee travel reimbursements were over $17.7 million in FY 2006. TVA travel
reimbursements are governed by (1) TVA policies and procedures and (2) federal travel
regulations.

We found many TVA employees received significant travel reimbursements and traveled
to the same location for extended periods in multiple years. Therefore, we identified the
top 100 travelers based on the number of days spent in travel status in a single location
during FYs 1999 through 2006 and requested justifications from management for the
extensive travel.

In summary, we found for the 8 years of travel reimbursements reviewed, there were
434 different TVA employees that were identified as a top 100 traveler during any of
these FYs. During this period, the 434 individuals received reimbursements totaling
over $9.6 million. While the organizations provided explanations, no documentation
was provided to support that consideration was given to changing any official duty




TVA Office of the Inspector General                                               page 26
Inspections



stations. The lack of specific justification for extended travel for several individuals over
several years to one location raises questions about whether there may be cost savings
opportunities.

Management generally agreed with our findings and recommendations and has
initiated or plans to initiate appropriate corrective actions.

TVA VISA GOLD EXECUTIVE EXPENSE CARD (GOLD CARD)

We conducted a review to determine whether Gold Cards were being used in
accordance with TVA policies and procedures. Gold Cards are issued to TVA Board
members, officers, and other designated employees for travel, entertainment,
hospitality, and incidental miscellaneous expenses, and these charges are directly billed
to TVA. Our review included Gold Card purchases made from October 1, 2004, to
August 28, 2006. Of the 272 cardholders with charges during this period,
10 accounted for about 34 percent of all charges. In summary, we found:

   Gold Cards are generally being used in accordance with TVA policies and
   procedures.

   Policies addressing Gold Card use could be improved.

   Gold Card expenditures were for various purposes, including travel, meals,
   hospitality/gifts, economic development, and employee meetings. We noted
   instances where documented justifications (i.e., purpose, risk to TVA, and benefit to
   TVA) did not appear adequate to show the potential benefits warranted the
   expenditures.

Management generally agreed with our findings and recommendations and indicated
that modifications would be made to policies and forms to strengthen controls
governing Gold Card usage.




page 27                                                           April 1 ~ September 30, 2007
                                                                         Inspections



TVA AND CONTRACTOR HIRING PRACTICES

We conducted a review of TVA and contractor employment procedures to determine
whether TVA policies and procedures ensure the hiring of non-citizens complies with
legal requirements. Our review included a sampling of all new hires from June 1, 2004,
through May 31, 2007. In summary, it appears that TVA has appropriate policies and
procedures in place to ensure (1) its hiring process is in compliance with applicable
legal requirements and (2) contractors are responsible for ensuring that principals/
employees under contract to TVA meet Immigration and Naturalization Services (INS)
requirements.

However, we selected 34 employees to verify TVA compliance with the INS
requirements and found required information could not be provided for 9 employees
due to the loss of electronic files. The PRIS backup and server failures were addressed
in a separate audit. TVA management agreed with our findings and will determine what
actions, if any, are necessary since required information was lost due to system failures.

BFN UNIT 1 RESTART LESSONS LEARNED

TVA’s successful effort to restart Unit 1 at BFN provided an opportunity to transfer
knowledge to future generation projects to (1) improve project oversight, (2) improve
project efficiency and effectiveness, (3) generate cost savings opportunities, and/or
(4) reduce TVA’s risk of fraud, waste, and abuse. Currently, TVA is planning to meet the
need for additional base-load capacity on the TVA system and maximize the use of
existing assets by completing and operating WBN Unit 2.

We conducted a review to identify improvement opportunities from the BFN Unit 1
Restart project taking into consideration (1) previously reported audits, inspections,
investigations; and (2) TVA management evaluations. OIG reviews of the BFN Unit 1
Restart project and TVA management’s evaluations of the restart activities have
identified opportunities for improvement in future generation projects. Specifically:




TVA Office of the Inspector General                                                page 28
Inspections



   The OIG conducted reviews throughout the course of the project focusing on
   (1) payment of overheads and direct expenses, (2) craft time labor reporting,
   (3) equipment and tools controls, (4) inventory management and accounting, (5) the
   restart incentive program, and (6) contract compliance.

   TVA management identified areas they felt were “hard spots” during the project and
   developed key project control activities to avoid the issues in the future. Some “hard
   spots” identified related to (1) staffing and training, (2) self assessments,
   (3) development of a comprehensive plan, (4) turnover, and (5) material and
   equipment availability.


We plan to periodically review management’s progress in implementing improvement
opportunities.

ENSURE NEW HIRES MEET PHYSICAL JOB REQUIREMENTS

We conducted a review to assess the procedures in place at TVA to ensure that new
hires meet physical job requirements. Our review was limited to the pre-employment
medical examination process conducted for job applicants. In summary, we found TVA
has a policy in place that requires all new hires to have a medical screening before
starting work (i.e., preplacement exam). However, the TVA Medical Examiners Guide
and Health and Safety Practice 1, Occupational Health, do not specify (1) who is
responsible for providing examiners with job descriptions to be used in their
examination and (2) that examiners are required to utilize the job description information
in conducting their physical job requirement evaluation.

We suggested that the Chief Administrative Officer consider:

   Strengthening the TVA Medical Examiners Guide and/or Health and Safety
   Practice 1, Occupational Health, by specifying (1) who is responsible for providing
   examiners with job descriptions and (2) that examiners should consider job
   description elements in their evaluation.




page 29                                                           April 1 ~ September 30, 2007
                                                                        Inspections



   Reemphasize the roles and responsibilities that supervisors/managers and medical
   examiners have in ensuring new hires meet physical job requirements.


Management agreed with our findings and has already initiated some corrective actions
and plans to initiate additional corrective actions.

CALVERT CITY COAL TERMINAL (CCT)

We reviewed the key control activities and the scale certification process applicable to
TVA coal shipments at CCT. Our review included coal shipments delivered to and
shipped from CCT from January 1 through December 31, 2006. We found the terminal
had processes and key control activities in place for the receiving, blending, weighing,
and loading of the coal it handles for TVA. The terminal also appears to have adhered
to the scale certification requirements prescribed by the TVA contract. However, we
also:

   Identified one barge shipment where terminal documentation showed the barge
   being sent to the TVA Colbert Fossil Plant (COF). According to TVA Fuel Supply (FS)
   personnel, the barge sank in August 2006, in route to COF.

   Found discrepancies with some barge and some train shipments that apparently
   resulted from keying errors on the part of TVA and CCT personnel. This included six
   train shipments recorded in FuelWorx as received at the wrong terminal.


Management generally agreed with our findings and recommendations and has
initiated or plans to initiate appropriate corrective action. Subsequent to our review, FS
initiated and received reimbursement for the sunken barge.

TVA TUITION REIMBURSEMENTS

We conducted a review of TVA’s Tuition Reimbursement Program (TRP) to assess
compliance with TRP policies and procedures. Full-time annual employees are eligible
to participate in the TRP. The use of the program has grown significantly since
FY 2003. Payments to employees increased from about $339,000 in FY 2003 to over




TVA Office of the Inspector General                                                page 30
Inspections



$985,000 in FY 2006. In summary, we identified opportunities for improvement in TRP
program controls. Specifically, we noted:

   Instances of non-compliance with Business Practice 18, Tuition Reimbursement,
   related to (1) required documentation for program approvals, (2) evidence of
   satisfactory completion, (3) approval for cost increases, (4) reimbursements for
   non-allowable expenses, and (5) the requirement to drop inactive participants.

   Opportunities to improve controls over the program including (1) requiring all
   participants to sign service agreements, (2) follow-up on satisfactory course
   completion when tuition reimbursement is approved prior to completion of
   coursework, (3) ensuring maximum reimbursements are not exceeded, and
   (4) clarifying acceptable coursework and active participation.


Management generally agreed with our recommendations, and we concur with TVA
management’s planned actions.

NON-COMPETE CONTRACTS

We conducted a review of 52 TVA non-compete contracts to determine whether or not
non-competed contracts are issued and administered in compliance with TVA policies
and procedures, including assessing the justification for the non-competed contract
award. Our review included non-competed contracts classified as emergency, sole
source, single source, small dollar procurements, and supplements that had a status of
approved, pending, or issued as of December 31, 2006. In summary, we found:

   Two contracts could not initially be located for review and seven did not have
   Form 17388 (Request for Approval Non-Competed Contracts or Supplements)
   and/or the appropriate notification/approval required by TVA policies and
   procedures. Form 17388 is required with the appropriate signatures and justification
   for the contract.




page 31                                                        April 1 ~ September 30, 2007
                                                                         Inspections



   Three of the contracts reviewed did not appear to have an appropriate justification
   as outlined in Section 9(b) of the TVA Act and INSTRUCTION 1, Business Practice 9,
   Implementing Procedures.

   Multiple contracts not governed by Business Practice 9 are classified under a
   justification in PassPort that does not apply to the contract.

Management generally agreed with our findings and recommendations and has initiated
or plans to initiate corrective actions.

REVIEW OF TVA’S INITIAL DESKTOP REVIEW OF
THE OVERALL PANDEMIC PLAN

At the request of the Executive Vice President, Administrative Services, we initiated a
review to provide independent verification that key actions of the TVA Pandemic Plan
were completed. In summary, we found while some progress had been made, the TVA
Pandemic Plan had not been completed and planning efforts had changed.
Specifically, (1) Business Unit and Strategic Business Unit plans were still being
developed and reviewed and (2) the Pandemic Planning Team plans changed whereby
it will conduct tests of telework capabilities rather than conduct additional table-top
exercises in which different scenarios are provided and attendees from TVA
organizations determine what actions are warranted based on the TVA Pandemic Plan.
While some specific actions had been completed, we recommended TVA Administrative
Services consider expediting the completion of the TVA Pandemic Plan before risks
increase with the beginning of the next influenza season. Subsequent to our review, the
TVA Pandemic Plan was completed and tests of telework capabilities had begun.

FORCE MAJEURE POLICIES AND PROCEDURES

We conducted a review to determine (1) vendor compliance with contract force majeure
provisions and (2) the adequacy of coal contract terms and conditions related to force
majeure events. Our review included force majeure contract language in TVA coal
contracts with vendor mines and rail companies that were active during calendar year




TVA Office of the Inspector General                                                  page 32
Inspections



2006 and related force majeure events which occurred from January 1, 2005, through
March 1, 2007. In summary, we found:

   No documented instances in which (1) a vendor did not provide formal notification of
   a force majeure event and (2) the force majeure justification was not in accordance
   with the force majeure contract language.

   Standard contract language exists for the development of a contract force majeure
   clause, however, the force majeure clause is often modified either in initial contract
   negotiations or subsequent contract supplements. This variation could result in
   increased cost to TVA.

   Most of the force majeure events were not verified.


In addition, we also found (1) no policies and/or procedures specifically governing how
to manage force majeure events, (2) no central repository for documenting force
majeure events declared and the impact resulting from these force majeure events, and
(3) limited and/or inconsistent documentation pertaining to force majeure events and FS
actions.

Management agreed with our findings and recommendations and has initiated or plans
to initiate appropriate corrective actions.

TRUST FUNDS ADMINISTERED BY RIVER OPERATIONS (RO) AND THE OFFICE
OF ENVIRONMENT AND RESEARCH (OE&R)

We conducted a review to determine whether the trust funds administered by RO and
OE&R were administered in accordance with the terms of the agreements and
applicable laws and regulations. Based on information obtained in OIG
Audit 2007-005F, Identification of TVA’s Cash Accounts, we initiated a review of trust
funds identified as being administered by RO and OE&R. In summary, we found:

   No policies or procedures applicable to the creation or administration of trust funds
   existed.




page 33                                                         April 1 ~ September 30, 2007
                                                                          Inspections



   The majority of the trust funds were basically inactive; trust funds were established
   with appropriated funding; and the trust funds received limited oversight.


Management generally agreed with our findings and recommendations and has already
initiated some corrective actions and plans to initiate additional corrective actions.

TVA’S ECONOMIC DEVELOPMENT (ED) LOAN PROGRAM

ED, along with energy production and environmental stewardship, are the integrated
purposes of TVA. TVA’s ED goals are to increase capital investment and attract and
retain better paying jobs for the TVA service area. To aid in achieving these goals, ED
has four types of loan programs: Economic Development, Minority Business
Development, Business Incubator, and Special Opportunities Counties. Our objectives
during this review were to (1) determine if TVA’s ED loans are being executed and
administered in accordance with TVA policies and procedures and (2) assess loan
defaults to identify any actions taken in approving the loans which could have
contributed to the defaults. In summary, we found:

   Management had not fully implemented procedures governing the loan
   administration process after closing.

   Noncompliances with ED loan guidelines were identified in 13 of 42 loan files
   reviewed.

   Uncollectible ED loans were not written off in a timely manner as required by
   generally accepted accounting principles.

   Explanations provided by ED management for 10 of the 13 loan files where
   noncompliances were noted indicated the Loan Approval Committee made
   exceptions and approved loan applications even though they were not in compliance
   with program guidelines. Of these ten loans, five were identified as being in default
   status indicating that departure from guidelines could potentially contribute to loan
   defaults. Our review noted no other specific trends in the loan files that appeared to
   contribute to loan defaults.




TVA Office of the Inspector General                                                  page 34
Inspections



In addition, at ED’s request, we reviewed ED’s draft Loan Manual and identified
improvement opportunities. Management generally agreed with our findings and
recommendations and has initiated or plans to initiate appropriate corrective actions.
Management has informed us that the Loan Manual was completed and approved by
the Loan Committee.

TVA NUCLEAR (TVAN) MEDICAL SERVICES

We initiated a review to determine whether (1) the objectives of TVAN Medical Services
program are being met and (2) to assess compliance with applicable regulations. Our
review included only the services being performed by TVAN Medical Services. In
summary, we found no stated objectives, policies, or procedures relating specifically to
TVAN Medical Services. In addition, varying services are being performed at the TVAN
Medical Services site offices, and supervision of nurse practitioners may not be
adequately ensured.

Management generally agreed with our findings and recommendations and has already
initiated some corrective actions and plans to initiate additional corrective actions.




page 35                                                          April 1 ~ September 30, 2007
                                                                     Investigations



Summary of Representative Investigations

During the past six months, we closed 121 cases. Our investigations, including task
force projects and joint investigations with other agencies, resulted in two convictions
and six indictments. We also completed three fraud risk assessments and referred
numerous concerns to management for appropriate action. These investigations were
based on allegations and concerns received from ratepayers, TVA managers and
employees, contractor employees, and OIG auditors. Below we discuss criminal and
administrative investigative results, fraud risk assessments, management referrals, and
our support of investigative task forces.

ACTIONS IN CRIMINAL CASES

We continued our efforts to focus more resources on potential fraud cases. As
reported in past semiannual reports, our proactive efforts to identify fraud include using
technology such as data mining, outsourcing our hotline to provide further assurances
of anonymity to those who want it, and reaching out to TVA
employees through visits and training, an OIG newsletter,
and a reward program for individuals who bring new
information to the OIG about criminal or unlawful activities
involving TVA programs and personnel. The following
indictments and convictions took place during the past six
months.

FORMER TVA MANAGER PLEADS GUILTY

John Symonds, a former manager at BFN, pled guilty to a felony charge of making a
false statement on his 2002 financial disclosure report. Mr. Symonds certified on the
financial disclosure report that neither he nor his spouse had a source of earned income
other than TVA. Contrary to this certification, he owned a separate limited liability
company that received checks for $29,212 and $25,000 during February 2002 from
another company. That money was used to pay personal expenses of Mr. Symonds




TVA Office of the Inspector General                                                 page 36
Investigations



and his spouse. At the time he received those checks, Mr. Symonds knew that a TVA
contractor had directed that those checks be sent to him.

FORMER TVA EMPLOYEE CONVICTED OF WORKERS’ COMPENSATION FRAUD

A former TVA employee, Carl Hall, pled guilty to theft in the first degree in Alabama
state court for making false statements to obtain workers’ compensation benefits. For
the period December 15, 2001, to August 29, 2003, Mr. Hall obtained prescription
narcotics such as oxycodon and hydrocodone and other controlled substances such as
muscle relaxants through nine different doctors and six pharmacies. He received these
prescription drug benefits through TVA’s Workers’ Compensation Program. He was
placed on probation for three years. Based on the conviction, we requested the Office
of Workers’ Compensation Programs terminate his benefits. The projected long-term
savings for TVA is $546,499 over his life expectancy.

TVA EMPLOYEE INDICTED FOR THEFT OF FUEL CARDS

James Jackson, a Yard Equipment Technician at a TVA fossil plant, was indicted for
theft of property in Tennessee state court. Evidence shows Mr. Jackson charged over
$12,000 on stolen Wright Express fuel cards. We are working this case jointly with the
TVA Police.

OWNERS OF HICKMAN MILLS INDICTED

Neal Gordon Wall and Lloyd Aaron Smith, Tennessee businessmen, were indicted on
August 14, 2007, by a federal grand jury in Kentucky. Both Mr. Wall and Mr. Smith
were charged with 3 counts of bank fraud, 1 count of mail fraud, and 12 counts of
money laundering. The indictment charges that Mr. Smith and Mr. Wall during 2003
engaged in two separate fraudulent schemes involving loans they arranged for a textile
company they owned and operated in Hickman, Kentucky, called Hickman Mills. One
fraudulent scheme involved a $5 million bank loan guaranteed by a federal agency. The
other scheme involved a $500,000 loan from TVA that was to be used solely to
purchase textile equipment for use at the Hickman Mills facility. The indictment charges
that Mr. Wall and Mr. Smith provided false information to TVA to obtain the loan and




page 37                                                        April 1 ~ September 30, 2007
                                                                    Investigations



deposited the money into an account of another business they owned and operated
that was incurring serious financial difficulties at the time. Hickman Mills subsequently
defaulted on the loan.

FORMER TVA EMPLOYEE INDICTED

Milton Fuqua, a former TVA employee, was indicted by a federal grand jury in Alabama
on charges that he made a willful false statement when he claimed he suffered an
on-the-job injury at TVA. Based on the OIG investigation, TVA terminated his
employment. In addition, his claim for workers’ compensation benefits was denied,
resulting in long-term avoided cost for TVA of approximately $848,000.

FORMER BICENTENNIAL VOLUNTEERS, INC. (BVI) COMPTROLLER INDICTED

BVI is a non-profit organization that has provided experienced retirees to support TVA
projects and programs for more than 25 years. In early 2002, BVI was divided into
three distinct organizations. The volunteer work remained with BVI, while the Retiree
Resource Corporation (RRC) was established to handle staff augmentation work and
the National Emergency Assistance (NEA) was established to handle the federal
emergency assistance work. A former BVI comptroller, Phyllis Giger, was indicted on
wire fraud charges. The indictment alleges that Ms. Giger, in providing comptroller
services for NEA and RRC, fraudulently caused the electronic transfer of funds from
NEA’s and RRC’s AmSouth accounts to her personal bank accounts. The indictment
further alleges that Ms. Giger fraudulently concealed her wire transactions by falsely
identifying the electronic fund transfers as payments to other individuals. Ms. Giger is
awaiting trial.




TVA Office of the Inspector General                                                page 38
Investigations



ADMINISTRATIVE INVESTIGATIONS

Because our mission also includes preventing fraud, waste, and abuse, during our
investigations we look for control weaknesses that might allow fraud to occur. We also
conduct some purely administrative investigations when the potential risk and
significance is high enough to warrant an independent investigation. Examples would
include allegations of misconduct by senior managers or issues related to the operation
of TVA’s nuclear plants. Below we discuss the results of several administrative
investigations completed during this reporting period.

ALLEGATION INVOLVING CONCERNS RESOLUTION STAFF (CRS)

We investigated an allegation that the CRS fabricated interview information in order to
mislead the NRC. While several individuals either did not remember statements
attributed to them by CRS or stated they would not have made those statements, the
evidence did not show any intent to mislead the NRC. We made several
recommendations to avoid future issues concerning interview write-ups. Management
agreed with our recommendations and took appropriate corrective action.

ALLEGED INAPPROPRIATE ALTERING OF NUCLEAR RECORDS

Investigation found that although there was evidence supporting
the allegation that a TVA manager altered data, namely the amount
of lithium in the reactor coolant system, in our opinion there was
insufficient evidence to conclude the manager improperly changed
the results to achieve an acceptable value. We informed
management of our finding.

INVESTIGATION OF INTIMIDATION AND HARASSMENT ALLEGATION

Our investigation found a nuclear manager violated TVA policy when he gave an
employee a verbal warning, at least in part, in reprisal for the employee initiating a
Problem Evaluation Report. That manager subsequently left TVA employment.




page 39                                                          April 1 ~ September 30, 2007
                                                                    Investigations



PRIS INVESTIGATION

PRIS is the official repository for TVA personnel documents such as
employment applications, offer letters, disciplinary letters, performance
evaluations, termination papers, etc. In March 2007, PRIS had two hard
drive failures. As Information Services began work to recover the PRIS
system, they discovered a system backup had not been performed. In trying
to recreate the PRIS data, they placed Performance Review and Development (PR&D)
forms on an unsecured temporary share that could be accessed by anyone with a TVA
network ID. We investigated whether there was any willful misconduct in connection
with the PRIS server failure, the failure to back up PRIS, and the subsequent placing of
PR&D files on an unsecured temporary share in connection with the effort to restore
PRIS data. The evidence did not show any willful misconduct, although it did show
numerous errors and that employees in Information Services did not give a high enough
priority to security considerations.

INVESTIGATION OF EMPLOYEE DOWNLOAD OF PR&D FORMS FROM SHARED
SERVER

In connection with the PRIS failure, we investigated a TVA employee’s apparent actions
in downloading PR&D files from the unsecured temporary share. The TVA employee
admitted downloading PR&D forms from a shared server to his computer and then
copying that information to a CD. He stated, however, that he deleted the data once
he realized it contained personnel information. While we found no direct evidence
showing he knew what the downloaded files contained, we also found circumstantial
evidence suggesting he knew what he was downloading. Management suspended the
employee for three days.

SEXUAL HARASSMENT ALLEGATION

Investigation found a male TVA supervisor engaged in inappropriate behavior toward
another male. The supervisor was given a written warning and transferred to a position
with no supervisory responsibility.




TVA Office of the Inspector General                                              page 40
Investigations



INVESTIGATION OF FALSIFIED DOCTOR’S STATEMENTS

Our investigation found a TVA employee submitted forged doctor’s statements to
support her use of sick leave. The employee was terminated during our investigation
for being unavailable for work.

FRAUD RISK ASSESSMENTS

We work with TVA management to conduct fraud risk assessments (FRA) of major
processes throughout TVA. An FRA is a process for management and business
process owners to identify and analyze fraud risk factors that may be common to
general business practices and also specific to the organization and its operations. The
OIG serves as facilitator and consultant during the FRA process, which involves a
                              methodology to identify (1) the types of frauds which can
                              occur, (2) the likelihood and significance of fraud
                              occurring, (3) the internal controls in place to prevent
                              fraud, and (4) the actions needed to improve internal
                              controls. As part of this process, we provide fraud
                              awareness training. Because the purpose of an FRA is
                              only to identify potential areas of risk, existing controls are
                              not tested to determine their effectiveness.

Three FRAs were completed during this period. In each case, we facilitated a meeting
where representatives from the process owner first brainstormed to identify potential
fraud schemes and their possible significance and likelihood, and then identified internal
controls already in place to prevent those frauds from occurring. This methodology
helps the process owner recognize areas where internal controls may not be adequate,
given the level and significance of risk for particular schemes. Based on this evaluation,
the process owners identified several additional controls that could be implemented to
further mitigate risks. The controls included requiring additional TVA employees to
complete financial disclosure forms, requiring contractors to provide further supporting
documentation, and conducting additional testing.




page 41                                                          April 1 ~ September 30, 2007
                                                                   Investigations



The specific FRAs conducted during this reporting period were as follows.

   We worked with Procurement to issue a fraud risk assessment of the Fleet
   Management process, including the processes (1) to manage the contracts for fuel
   and vehicle maintenance, (2) to control the use of Wright Express fuel cards, and
   (3) to purchase and dispose of vehicles. Six fraud risk areas were identified and
   33 possible fraud schemes were considered.

   We assisted the Employee Benefits organization in conducting an FRA of TVA’s
   employee benefits programs. That FRA identified 4 fraud risk areas and 49 potential
   fraud schemes.

   We worked with Power Services Operations (PSO) to conduct an FRA of the
   processes related to the design and construction of transmission lines and
   substations. This included hiring and management of contractors, purchase and
   management of construction materials, management of equipment, clearing
   right-of-ways for new construction, and building infrastructure and disposing of
   excess material. PSO identified 8 fraud risk areas and considered 53 possible fraud
   schemes.

MANAGEMENT REFERRALS

As noted on the Empowerline site, the OIG investigates allegations in areas such as
fraud, accounting irregularities, reprisal, environmental crimes, sabotage, and waste and
abuse. Other avenues exist within TVA to address concerns in other areas such as
personnel issues, protection of property, Equal Employment Opportunity, union
grievances, and benefits issues. Because we receive concerns in these other areas,
we have developed a process for referring them to the appropriate organization and
tracking that organization’s response. In this manner, we maintain a central repository
of concerns raised and the resulting action taken. Illustrative examples of these
referrals follow.




TVA Office of the Inspector General                                                 page 42
Investigations



   Management suspended an employee for 14 days based on their finding of a wide
   pattern of frequent and inappropriate use of the travel card. Management also
   stated it would review its expectations on travel-related issues with all employees to
   ensure employees understand when it is and is not appropriate to use the travel
   card.

   In response to a concern about problems with a crane boom being used by a
   contractor at a TVA site, management had a crane inspector look at the boom in
   question. The inspector found the boom was damaged. Accordingly, the crane was
   tagged out of service and the contractor used a crane rented from TVA and a boom
   truck rented from a rental company to continue the work.

TASK FORCES

We recognize the importance of sharing investigative resources and information with
other federal agencies and task forces in order to focus enhanced law enforcement
resources by applying the most effective criminal and civil statutes against individuals
and companies who are breaking the law. During this reporting period, we provided
investigative resources to the Environmental Crimes Joint Task Force, the Joint
Terrorism Task Force, the Health Care Fraud Task Force, and the Tennessee Drug
Diversion Task Force.




page 43                                                         April 1 ~ September 30, 2007
                                      Investigations




TVA Office of the Inspector General            page 44
Legislation and Regulations



               We are responsible under the IG Act for reviewing proposed legislation
               and regulations that relate to the programs and operations of TVA.
               Although TVA’s Office of the General Counsel reviews proposed or
               enacted legislation that could affect TVA activities, the OIG
               independently follows and reviews proposed legislation that affects the
               OIG and/or relates to economy and efficiency or waste, fraud, and abuse
               in TVA programs or operations.

Major pieces of legislation being followed by the TVA OIG include, The Improving
Government Accountability Act, H.R. 928, which was passed by the House of
Representatives on October 3, 2007, with an overwhelming vote of 404 yeas to
11 nays. After being received by the Senate, it was referred to the Senate Committee
on Homeland Security and Government Affairs where a companion bill, S. 1723
introduced by Senator McCaskill, is currently pending.

As passed by the House, H.R. 928 includes provisions to (1) establish a seven-year
renewable term of office, as well as conditions for removal for newly appointed IGs;
(2) inform the appropriate committees of Congress when the agency IG budget is
insufficient; (3) establish an Inspector General Council on Integrity and Efficiency;
(4) prohibit cash bonuses or awards to IGs; (5) establish IG pay at Level III of the
Executive Schedule; (6) clarify IG subpoena power; (7) make inspection reports and
evaluation reports applicable to the semiannual reporting process; and (8) establish
requirements for IG web sites.

We are in general support of this bipartisan legislation which we believe will enhance IG
independence and improve OIG operations. The TVA OIG has been working to have
language inserted into the Senate bill which would enhance our independence by
having our funding by TVA proceed through the appropriation process. IG Moore is a
member of the PCIE Legislation Committee.




page 45                                                          April 1 ~ September 30, 2007
    APPENDICES




TVA Office of the Inspector General   page 46
Appendix 1



Index of Reporting Requirements Under the Inspector General Act
REPORTING REQUIREMENT                                                                                     PAGE



Section 4(a)(2)   Review of Legislation and Regulations                                                     45


Section 5(a)(1)   Significant Problems, Abuses, and Deficiencies                                         15-43


Section 5(a)(2)   Recommendations With Respect to Significant Problems, Abuses, and Deficiencies         15-43


Section 5(a)(3)   Recommendations Described in Previous Semiannual Reports on Which
                  Corrective Action Has Not Been Completed                                           Appendix 4


Section 5(a)(4)   Matters Referred to Prosecutive Authorities and the Prosecutions and Convictions
                  That Have Resulted                                                                 Appendix 5


Section 5(a)(5)   Summary of Instances Where Information Was Refused                                      None
and 6(b)(2)


Section 5(a)(6)   Listing of Audit Reports                                                           Appendix 2


Section 5(a)(7)   Summary of Particularly Significant Reports                                            15-43


Section 5(a)(8)   Status of Management Decisions for Audit Reports Containing Questioned Costs       Appendix 3


Section 5(a)(9)   Status of Management Decisions for Audit Reports Containing Recommendations
                  That Funds Be Put to Better Use                                                    Appendix 3


Section 5(a)(10) Summary of Unresolved Audit Reports Issued Prior to the Beginning of the
                 Reporting Period                                                                         None


Section 5(a)(11) Significant Revised Management Decisions                                                 None


Section 5(a)(12) Significant Management Decisions With Which the Inspector General Disagreed              None


Section 5(a)(13) Information under Federal Financial Management Improvement Act of 1996                   None




page 47                                                                             April 1 ~ September 30, 2007
                                                                               Appendix 2



Audit Reports Issued
AUDIT REPORT
NUMBER                                                QUESTIONED UNSUPPORTED FUNDS PUT TO
AND DATE     TITLE                                      COSTS       COSTS     BETTER USE

CONTRACT

2006-030C
04/30/2007       McDaniel Fire Systems                 $408,105      $11,713

2007-015C
05/30/2007       The L.E. Myers Company                    490          490

2007-010C
06/22/2007       Voith Siemens Hydro
                 Generation, Inc.                       380,589       45,639

2007-022C
06/25/2007       EyeMed Vision Care                     153,141       56,748

2007-012C
06/26/2007       Stone & Webster, Inc.                   30,645        1,077

2007-11081
06/28/2007       Stone & Webster, Inc.                  689,000

2007-014C
07/11/2007       Retiree Resources Corporation          538,250

2006-029C
07/12/2007       General Electric Company               959,580      959,580

2007-11070
07/30/2007       Preaward Audit for TVA Request
                 for Proposal (RFP) 021407                                        $19,100

2007-013C
08/10/2007       Preaward Audit for RFP 110105

2007-11036
08/16/2007       Stone & Webster Construction, Inc.     895,313

2007-033C
09/14/2007       Nol-Tec Systems, Inc.                  310,818        2,791

2007-11047
09/18/2007       Parker’s Bushhogging Services           33,521       33,521

F I NA N C I A L
2007-032F
04/24/2007       SOX 404 Readiness Testing -
                 Acquire and Develop Fixed Assets

2007-037F
05/01/2007       SOX 404 Readiness Testing -
                 Disposal of Fixed Assets

2007-038F
05/03/2007       2nd Quarter FY 2007 Coal
                 Mark-to-Market Review




TVA Office of the Inspector General                                                  page 48
Appendix 2



AUDIT REPORT
NUMBER                                                QUESTIONED UNSUPPORTED FUNDS PUT TO
AND DATE     TITLE                                      COSTS       COSTS     BETTER USE

F I NA N C I A L ( c o n t i n u e d )
2007-11018
05/17/2007       Audit of PwC’s Review of TVA’s
                 2nd Quarter FY 2007
                 Financial Information

2007-11057
06/15/2007       SOX 404 Readiness Testing -
                 Managing Derivatives Process

2007-040F
07/18/2007       SOX 404 Readiness Testing -
                 Regulatory Assets and Liabilities

2007-11106
07/18/2007       3rd Quarter FY 2007 Coal
                 Mark-to-Market Review

2007-11077
07/20/2007       SOX 404 Readiness Testing -
                 Posting Payments to Accounts
                 Receivable Subsidiary Ledgers

2007-029F
07/25/2007       SOX 404 Readiness Testing -
                 Bulk Power Trading

2007-026F
07/30/2007       SOX 404 Readiness Testing -
                 Power Billing Invoice
                 Generation for Direct Serve
                 Customers (I)

2007-11041
07/30/2007       SOX 404 Readiness Testing -
                 Power Billing Invoice
                 Generation for Direct Serve
                 Customers (II)

2007-10981
08/08/2007       Review of End-Use Billing
                 Control Analytic

2007-11132
08/09/2007       SOX 404 Readiness Testing -
                 Nuclear Decommissioning
                 Trust Investment Funds

2007-11075
08/10/2007       SOX 404 Readiness Testing -
                 Distributor Short-Term Prepayments

2007-11058
08/14/2007       SOX 404 Readiness Testing -
                 Manage Overdue Customers (Aging)

2007-11126
08/17/2007       SOX 404 Readiness Testing -
                 Acquire and Develop Fixed Assets




page 49                                                              April 1 ~ September 30, 2007
                                                                         Appendix 2



AUDIT REPORT
NUMBER                                            QUESTIONED UNSUPPORTED FUNDS PUT TO
AND DATE     TITLE                                  COSTS       COSTS     BETTER USE

F I NA N C I A L ( c o n t i n u e d )
2007-11068
08/20/2007       SOX 404 Readiness Testing -
                 Processing & Accounting
                 for Interchange Transactions

2007-11159
08/20/2007       Audit of PwC’s Review of TVA’s
                 3rd Quarter FY 2007
                 Financial Information

2007-11172
08/23/2007       SOX 404 Readiness Testing -
                 Depreciating Fixed Assets

2007-11135
08/30/2007       SOX 404 Readiness Testing -
                 Disposing of Fixed Assets

2007-11190
09/13/2007       SOX 404 Readiness Testing -
                 Fuel Cost Adjustment

2007-11056
09/21/2007       SOX 404 Readiness Testing -
                 Generate Power Billing
                 Invoice – Distributor

2007-11088
09/25/2007       SOX 404 Readiness Testing -
                 Acquire and Process
                 Power Billing Data

2007-11117
09/27/2007       SOX 404 Readiness Testing -
                 Unbilled Revenue

2007-11136
09/27/2007       SOX 404 Readiness Testing -
                 Liability Account Accrual and
                 Reconciliation

2007-11099
09/28/2007       SOX 404 Readiness Testing -
                 PSO Revenue Metering

2007-11130
09/28/2007       SOX 404 Readiness Testing -
                 Recording Time




TVA Office of the Inspector General                                             page 50
Appendix 2



AUDIT REPORT
NUMBER                                                QUESTIONED UNSUPPORTED FUNDS PUT TO
AND DATE     TITLE                                      COSTS       COSTS     BETTER USE

INFORMATION TECHNOLOGY
2007-10989
04/30/2007     IT General Controls - Computer
               Operations: Help Desk & Problem
               Management

2007-006T
05/03/2007     Pre-Implementation Review of
               TVA Contract Central

2007-11009
05/30/2007     SOX 404 Readiness Testing -
               eDebt Application Exception
               Narrative

2007-10997
06/13/2007     Review of Temporary Shares for
               Sensitive Information

2007-11008
06/15/2007     SOX 404 Readiness Testing -
               Cash Collections System
               Application Exception Narrative

2007-11024
06/20/2007     SOX 404 Readiness Testing -
               HED Fleet Application Exception
               Narrative

2007-009T
06/22/2007     Hydro Automation Security – Hydro
               Dispatch Control Cell

2007-11044
06/22/2007     SOX 404 Readiness Testing -
               MAS200 Application Exception
               Narrative

2007-11091
07/23/2007     SOX 404 Readiness Testing -
               WebTrader Application Exception
               Narrative

2007-11040
07/24/2007     SOX 404 Readiness Testing -
               IT General Controls - Change Control

2007-039T-01
07/25/2007     PRIS

2007-008T
07/31/2007     Privacy Protection – TVA Use of
               Information in Identifiable Form

2007-036T
08/07/2007     SOX 404 Readiness Testing -
               Integrated Business System Application
               Exception Narrative




page 51                                                              April 1 ~ September 30, 2007
                                                                                             Appendix 2



AUDIT REPORT
NUMBER                                                   QUESTIONED UNSUPPORTED FUNDS PUT TO
AND DATE     TITLE                                         COSTS*      COSTS     BETTER USE

INFORMATION TECHNOLOGY (continued)
2007-11164
08/22/2007         SOX 404 Readiness Testing –
                   CWMi (Contractor Workforce
                   Management interface)

2007-11079
08/28/2007         SOX 404 Readiness Testing –
                   Access to Programs and Data

2007-11062
09/05/2007         Handling and Reporting the
                   Shutdown of BFN Unit 3 on
                   August 19, 2006

2007-11162
09/10/2007         SOX 404 Readiness Testing –
                   PassPort Application

2007-11184
09/13/2007         FISMA Evaluation

2007-11173
09/18/2007         SOX 404 Readiness Testing -
                   eRemittance Application

2007-039T-02
09/20/2007         Backup Verification

2007-11163
09/20/2007         SOX 404 Readiness Testing -
                   Fuelworx Application

O P E R A T I O NA L
2007-11006
05/29/2007         2nd Quarter FY 2007 Nuclear
                   Contracts’ Contract Review Checklist

2007-11012
06/14/2007         Green Power Accreditation Report
                   – 2006

2007-004F
07/23/2007         Review of TVA CQAR Payments             $235,500

2007-020F
06/28/2007         Review of Surplus Material

2007-034F
06/28/2007         Review of TVA Funding for Essential
                   Stewardship Services


TOTAL              66                                    $4,634,952          $1,111,559               $19,100

* Questioned costs include $1,328,732 for unreasonable or unnecessary expenditures not recoverable.

NOTE: A summary or the full report for many of the audits listed above can be found on our web page
http://insidenet.tva.gov:8042/2007audits.html.




TVA Office of the Inspector General                                                                       page 52
Appendix 3



Audit Reports Issued With Questioned Costs
                                                                                        QUESTIONED COSTS
                                                                NUMBER                TOTAL    UNSUPPORTED




A.   For which no management decision has been
     made by the commencement of the reporting period                0                        $0                   $0

B.   Which were issued during the reporting period                 12                $4,634,952           $1,111,559

Subtotals of A and B                                               12               $4,634,952          $1,111,559

C.   For which a management decision was made during
     the reporting period                                          11*               $4,592,248           $1,111,559

     (i) Dollar value of disallowed costs                          11                $3,324,324           $1,108,985

     (ii) Dollar value of costs not disallowed                       5               $1,267,924               $2,574

D.   For which no management decision has been made by
     the end of the reporting period                                 1                  $42,704                    $0

E.   For which no management decision was made within
     six months of issuance                                          0                        $0                   $0


* The total number of reports differs from the sum of C(i) and C(ii) when the same reports contain both costs disallowed
  and not disallowed by management. This number also excludes one report on which management decision was
  made on some, but not all, recommendations during the reporting period.




page 53                                                                             April 1 ~ September 30, 2007
                                                                       Appendix 3



Audit Reports Issued With Recommendations for Better Use of Funds
                                                              NUMBER   DOLLAR VALUE




A.   For which no management decision has been
     made by the commencement of the reporting period           1        $8,510,000

B.   Which were issued during the reporting period              1          $19,100

Subtotals of A and B                                            2       $8,529,100

C.   For which a management decision was made during
     the reporting period                                       2        $8,529,100

     (i) Dollar value of costs agreed to by management          2        $8,529,100

     (ii) Dollar value of costs not agreed to by management     0               $0

D.   For which no management decision has been made by
     the end of the reporting period                            0               $0

E.   For which no management decision was made within
     six months of issuance                                     0               $0




TVA Office of the Inspector General                                            page 54
Appendix 4



Audit Reports With Corrective Actions Pending
Final corrective actions stemming from one contract compliance audit and five IT audits are not complete; however,
corrective action is underway and scheduled for completion in accordance with the current revised milestones, where
determinable.

AUDIT REPORT
NUMBER
AND DATE                DESCRIPTION



2003-004C               A&G Tree Service, Inc.
03/30/04                TVA asserted a claim against A&G for $638,542 for unsupported billings under the contract. A
                        formal Contracting Officer’s Decision was rendered in March 2005 that concurred with our audit
                        findings and TVA’s claim and directed A&G to reimburse TVA for overpayments of $638,542
                        under a closed contract. During May 2005, TVA stopped A&G from performing work under a
                        subsequent contract and recovered part of TVA’s damages by withholding payments totaling
                        $88,362 on invoices under the subsequent contract. A&G filed two lawsuits against TVA (1) for
                        the payments withheld and (2) to appeal the Contracting Officer’s Decision. The timeframe for
                        resolution of these lawsuits is indeterminate.

2003-040T               Nuclear Plant IT Security
03/30/04                This report included recommendations to strengthen logical and physical controls at a nuclear
                        generation facility. TVA management has completed remediation action on all but one
                        recommendation which is targeted for completion by October 31, 2007.

2005-039T               eWorkplace Application, Access, and General Controls
01/30/06                This report included 15 recommendations to strengthen control over the time reporting system.
                        Weaknesses were identified in processing controls, direct data changes, logical access
                        controls, change management, and backup and contingency planning. TVA management has
                        completed remediation action on 12 recommendations and is implementing planned actions for
                        the remaining 3 recommendations. Actions are expected to be complete by September 30,
                        2008.

2006-032T               Physical Security Review of Iron Mountain
09/26/2006              This audit contained two recommendations regarding improving physical security of TVA
                        electronic and paper data. TVA is taking action to remediate the findings and is targeting
                        completion on December 31, 2007.

2006-034T-01            Security of TVA’s Network Perimeter – Blind Penetration Testing
09/25/2006              TVA management agreed with our recommendations and provided their action plan to address
                        the recommendations. The target date for completion is April 30, 2008.

2006-035T               Assessing TVA’s Efforts to Protect Sensitive Information
09/21/2006              We identified four areas for improvement. Management agreed and is taking action to
                        remediate the findings. The target completion date is December 30, 2007.




page 55                                                                             April 1 ~ September 30, 2007
                                                                                              Appendix 5



Investigative Referrals and Prosecutive Results*


Referrals

          Subjects Referred to U.S. Attorneys                                                   4
          Subjects Referred to State/Local Authorities                                          1


Results**

          Subjects Indicted                                                                     6
          Subjects Convicted                                                                    2
          Referrals Declined                                                                    4


* These numbers include task force activities and joint investigations with other agencies.
**Results include referrals from prior periods.




TVA Office of the Inspector General                                                                 page 56
Highlights



                                               SEPT 30,       MAR 31,        SEPT 30,           MAR 31,    SEPT 30,
                                                 2007          2007            2006              2006        2005

AUDITS
AUDITS IN PROGRESS
Carried Forward                                   36              16              20*               24         30
Started                                           72              42              23                22         41
Canceled                                           (7)             (4)             (1)               (3)      (11)
Completed                                        (66)            (18)            (26)              (22)       (29)
In Progress at End of Reporting Period            35              36              16                21         24*

AUDIT RESULTS (Thousands)
Questioned Costs                               $4,635        $1,252          $1,411              $774      $6,422
Disallowed by TVA                               3,324         1,429             782              1,122      4,969
Recovered by TVA                                1,274           695             793              1,641      5,016**

Funds to Be Put to Better Use                     $19        $8,913         $10,839              $700      $5,634
Agreed to by TVA                                8,529         4,534           2,790               633       1,251
Realized by TVA                                   948         3,603           2,287               740       6,002

OTHER AUDIT-RELATED PROJECTS
Completed                                          17            12               11               11          10
Cost Savings Identified/Realized (Thousands)       $0          $103               $0              $36          $0


I N V E S T I G AT I O N S * * *
INVESTIGATION CASELOAD
Opened                                           113             73              70                80         84
Closed                                           121             50             105                71         84
In Progress at End of Reporting Period           140*           148*            113               148*       157

INVESTIGATIVE RESULTS (Thousands)
Recoveries                                       $27.26        $332.5         $643.1            $2,966.5   $1,880.3
Savings                                          574.9           87.9         1,038.7            1,625.4       36
Fines/Penalties                                    1.28          10.2              .5                6.2        6.7

MANAGEMENT ACTIONS
Disciplinary Actions Taken (# of Subjects)          8               4              6                  9        13
Counseling/Management
   Techniques Employed (# of Cases)                 3               7             14                14         16

PROSECUTIVE ACTIVITIES (# of Subjects)
Referred                                            5               6              3                  5         8
Indicted                                            6               2              1                  3         4
Convicted                                           2               2              1                  3         5

INSPECTIONS

Completed                                         16              7               20                14        13
Cost Savings Identified/Realized (Thousands)     $15            $15               $0                $0      $118

  * Adjusted from previous semiannual report.
 ** Includes excess funds recovered by TVA of $33,219.
*** These numbers include task force activities and joint investigations with other agencies.




page 57                                                                                  April 1 ~ September 30, 2007
OIG LEADERSHIP PHILOSOPHY
 The TVA OIG strives to be a high performing organization
    made up of dedicated individuals who are empowered,
  motivated, competent, and committed to producing high
   quality work that improves TVA and life in the Valley.

  Each of us has important leadership, management, team,
    and technical roles. We value integrity, people, open
 communication, expansion of knowledge and skills, creative
    problem solving and collaborative decision making.
Office of the Inspector General of the Tennessee Valley Authority
 400 West Summit Hill Drive, Knoxville, Tennessee 37902-1401

                          oig.tva.gov
